2311 Douglas Street
Omaha, Nebraska 68102-1214

COCKLE

Legal Briefs E-Mail Address:

Est. 1923 contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No. 19-

ROBIN BRINDLE, KATHLEEN BROWN, SANDRA CARTER,
MARCIE LAPORTE, AND KELVIN RAMIREZ,
Petitioners,

Vv.

DELTA AIRLINES, INC., AND THE RHODE ISLAND
DEPARTMENT OF LABOR AND TRAINING,
Respondents.

AFFIDAVIT OF SERVICE

I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 13th day of September, 2019, send
out from Omaha, NE 2 package(s) containing 3 copies of the PETITION FOR A WRIT OF CERTIORARI in the above
entitled case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the
following:

SEE ATTACHED
To be filed for:
VICKI J. BEIMA STUART BANNER
Robinson & Clapham Counsel of Record
123 Dyer Street UCLA School of Law
Suite 135 Supreme Court Clinic
Providence, RI 02903 405 Hilgard Ave.

Los Angeles, CA 90095
(310) 206-8506
banner@law.ucla.edu

Subscribed and sworn to before me this 13th day of September, 2019.
Tam duly authorized under the laws of the State of Nebraska to administer oaths.

PATRICIA BILLOTTE

runt =, 0 Elite Qudiawh, Cbaly

My Commission Expires Nov 24, 2020

 

Notary Public Affiant 38563

 
Counsel for respondent Delta Airlines:
Ira G. Rosenstein

Morgan, Lewis & Bockius LLP

101 Park Avenue

New York, NY 10017

(212) 309-6000
ira.rosenstein@morganlewis.com

Counsel for respondent Rhode Island Department of Labor and Training:
Sean Fontes

R.I. Department of Labor and Training

1511 Pontiac Avenue

Cranston, RI 02920

(401) 462-8890

sean. fontes@dlt.ri.gov
